Department of Homeland Security
   Ofﬁce of Inspector General


    National Communications System's Management of 

  2005 Gulf Coast Hurricanes Mission Assignment Funding 





OIG-09-23                                    February 2009
                                                                                                 Offce of/nspecior General

                                                                                                 U.S. Department of Homeland Security
                                                                                                 Washington, DC 20528



                                                                                                 Homeland
                                                                                                 Security
                                                                  FEB          9 2009




                                                                       Preface


The Deparent of 
             Homeland Securty (DHS) Offce ofInspector General (DIG) was established by
the Homeland Security Act,of2002 (Public Law 107..296) by amendment to the Inspector General
Act of 1978. Ths is one of a series of audit, inspection,     and special reports prepared as par of our
oversight responsibilties to promote economy. effciency, and effectiveness within the deparent.

This report addresses the strengts and weakesses of 
                               the Nationa Communcations System's
(NCS') management of 
               mission assignment fuding from the Federal 
                Emergency Management.
Agency (FEMA). It is based on intervews with employees and offcials of relevant agencies and
institutions, direct obserations, and a review of applicable documents.

We contracted with the independent public accounting firm of Regis & Associates, PC, to perform
               contract required that Regis & Associates, PC, perform its review according to
the review. The 



gudance from the Offce of 
                 Management          and Budget and the Governent Accountabilty Offce.
Regis & Associa.tes, PC. identifed five areas where NCS' management of 
the mission assignents
and fuds could be improved. Specifically, NCS needs to: (1) improve its preparedness for futue
responses; (2) improve its disaster response procurement and contract monitoring processes;
(3) improve oversight for property accountabilty; (4) improve its retention of documentation
supporting reimbursable expenditues; and (5) improve its mission assignment reimbursement biling
processes. Regis & Associates, PC. is responsible for the attched independent accountants' report
and the conclusions expressed therein.

The recommendations herein have been developed to the best knowledge available to our offce, and
have been discussed in draft with those responsible for implementation. We trst that this report will
result    in more effective, effcient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of ths 
  report.
                                                                                                           r

                                                                    ~ .~. ~,."..
                                                                     Richad L. Skinner
                                                                     Inspector General
     .
         .   REGIS
         ASSOCIATES, PC

   MANAGEMT CONSULTANS &

  CERTIIE PUBUC ACCOUNANS



                     Independent Accountats' Report on Applyin Agreed Upon Procedures


Offce of Inspector General
U.S. Deparent of 
              Homeland Securty
Washigton, D.C.


We have performed certn agreed-upon procedures (the Procedures), as sumarized in the
Objectives, Scope, and Methodology section of 
                         ths report, related to mission assignent fudig to
the National Communcations System (NCS). These fuds were allocated to NCS by the Federal
Emergency Management Agency (FEMA) for the 2005 Gulf Coast Hurcanes. This engagement
consisted of reviewing selected management activities for the 23 mission assignents to NCS for
Huricanes Katrina (August 2005), Rita (September 2005), and Wilma (October 2005) issued
though March 31, 2006.

The Procedures, which were agreed to by the Deparent of Homeland Security Offce of Inspector
General, Offce of Emergency Management Oversight, were performed to examine the expenditues
made in executing the mission                     assignents, and to evaluate the management of the mission

assignent process from origintion to closeout.

Ths agreed-upon procedures engagement was performed according to standads established by the
American Institute of Certifed Public Accountats, and guidance from the Offce of Management
and Budget and the Governent Accountability Offce. The sufciency of the Procedures is solely
the responsibilty of           the specified users of            the report. Consequently, we 
 make no representations
regarding the sufciency of the Procedures, either for the purose for which ths report has been
requested, or for any other purpose. Our test procedures revealed internal control weakesses in five
areas. These fidigs and the associated recommendations are presented in the Results of                           Review
section of ths report.



We were not engaged to and did not perform an audit, the objective of   which would be the
expression of 
 an opinon on the specified elements, accounts, or items. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters niight have come
to our attention that would have been reported to you.

                                          the Deparment of 

Ths report is intended solely for the use of                 Homeland Security Offce of
                            Emergency Management Oversight, and should not be used by those
Inspector General, Offce of 


who have not agreed to the Procedures and taken responsibility for the suffciency of the Procedures
for their puroses.

Regis & Associates, PC




     REGIII
   .,.rrOCIAHS,P'


              1400 Eye Street, NW, Suite 425, Washigton, D.C. 20005 TeI202.296-7101 Fax 202-296-7284
Table of Contents/Abbreviations



Executive Summary ............. ................... ...... ...... ........................... .... ........... ........... ...... .......... ... ....... ..1


Backgroun d ....... ............ .... ................. ........ ........ ........ ............... ........... ...... ......... .......... ................ .... ...3


Res nIts of Review ......... ............ ..... ...... .... .... ................. ................... .................. ... .... .............. ...... ........5


A. Planng and Procedures for Procurement, Propert Accountability, and Financial

   Management.................... .................................................................................................................6

B. Disaster Response Procurement and Contract Monitoring Process................................................ 7

     1. Finaizing Vendor Contracts .............................. .............................................. ............ ...........7

        2. Procurements of Goods and Services ........... .......................... .... ....... ..... ................................8

        3. Procurement Periods and Mission Assignment Terms ............................................................8

C. Disaster Field Command Location Policies and Procedures ...........................................................9

     1. Budget Object Class Coding .............................. ............................................ ................. ......1 0

    2. Control Over Accountable Items ................. ..... ....................... ................. .............................11

D. The Retention of Documentation Supporting Expenditures....................................................... ..12

E. The Mission Assignment Reimbursement Billing Process............................................................ 
                                             13

        1. Documentation to Support Bilings.... ........ ...................... ................. ........ ............................14

        2. Subtasked Agencies Biled FEMA Directly..................................... ...... ...............................16

        3. Funding Statu for Mission Assignments Issued to NCS .....................................................17



 Management Response and OIG Analysis ......................................................................................18



 Appendices

 Appendix A: Objectives, Scope, and Methodology ............................................... ............................19

 Appendix B: Recommendations......................................................... ............................................... .21

 Appendix C: Schedule of Questioned Costs ............ ......... ......... ............................. ............................23

 Appendix D: Management Comments to the Draf Report ................................................................24

 Appendix E: Report Distribution ................................................ ....... .................................... .......... ...31



 Abbreviations
            DHS                       U.S. Deparent of                 Homeland Security

            FCC                       Federal Communcations Commission

            FEMA                      Federal Emergency Management Agency

            GSA                       General Services Administration

            NCS                       National Communcations System





                             NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
Executive Summary
Regis & Associates, PC, under contract with the U.S. Deparent of 

                                                                   Homeland Security, Office of
Inspector General, reviewed the National Communications System's management processes and
internal controls for implementing Federal Emergency Management Agency (FEMA)-issued
mission assignments related to the 2005 Gulf Coast Huricanes disaster relief efforts. FEMA is
authorized to task other federal agencies, including components within U.S. Deparment of
Homeland Security, with needed expertise to cary out specific disaster relief activities. Our
objective was to determne whether the National Communications System had properly designed and
implemented management processes and intern controls over the fuds it received for the specific
mission assignments.



The National Communications System reacted quickly to restore emergency telecommuncations
services to the afected areas. However, it did not initially have a ful understading ofits
procurement and fiancial management responsibilties under the mission assignments. It leveraged
ongoing business arangements with the Federal Communcations Commission, the U.S. General
Services Administration, and the U.S. Deparent of 
                  Defense for certain tasks, but experienced
signcant delays in getting key support contracts executed. The delayed execution of support

contracts, in tu, delayed contractor bilings and some of 
        the National Communcations System's
bilings for reimbursement from FEMA. As of 
            March  2007, the National Communcations System
had not yet provided adequate supporting documentation to FEMA. Due to those delays, FEMA had
reclaied all of 
        its earlier $4 milion reimbursement to the National Communcations System. Also,
the National Communcations System had not yet accounted for some equipment items.

 The National Communcations System entered into interagency agreements with the Deparent of
 Defense's Defense Information Technology Contracting Organzation to establish contracts with
 eligible vendors. Those agreements did not require the Defense Information Technology
 Contractig Organzation to provide supporting documentation for its payments to vendors caring
 out mission assignment roles. We requested that the National Communcations System obtain and
 provide us with ths information. The documentation provided was sufcient to support payments to
 vendors for alost all of 
 the $4 millon that the Defense Inormation Technology Contracting
 Organzation biled to the National Communcations System for reimbursement, but key approvals
 from the National Communcations System for the Defense Inormation Technology Contracting
 Organzation to pay vendors were missing. The National Communcations System biled FEMA
 soon afer being biled by the Defense Informtion Technology Contracting Organzation during the
 spring and sumer of 2006, but neither had generated the additional analytical data required by
 FEMA to support reimbursement of incured mission assignent cost. After repeated unsuccessful
 requests to the National Communications System and its administrative support entities for
 documentation, FEMA reclaimed its reimbursement.

 The National Communications System did not have effective procedures for controllng all assets
 with a high-dollar value, or assets of a sensitive natue. These items should have been turned over to
 FEMA prior to biling for reimbursement, but, as of 
  May 2007, the National Communications
 System was not able to account for 16 portable satellite telephones and a mobile telecommunications


                           NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding               1
system that had been used to restore emergency telephone services. Although much of the
contractua cost was incurred for personal services, it was not readily obvious whether additional
equipment items had been purchased, because generic budget coding masked the composition of
expenditues. Neither the Deparent of 
 Defense nor the National Communcations System had
analyzed the supporting documentation and vendor contracts to determe whether additional
equipment items purchased should have been submitted to FEMA.

We are proposing 21 recommendations to the National Communications System for improving its
preparedness for procurement actions, upgrading controls concernng accountable propert, and
improving its capacity to generate documentation for supporting costs biled to FEMA under mission
assignments.




                  NCS'Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding           2
Background
The Robert T, Stafford Disaster Relief and Emergency Assistance Act (Stafford Act), signed into law
on November 23, 1988, is the statutory authority for most federal disaster response activities,
especially as they pertain to the Federal Emergency Management Agency (FEMA) and FEMA
programs. To make federal assistace under the Stafford Act available, states must initiate a request
for an emergency or maj or disaster declaration that is reviewed by FEMA for approval of the
President. The Stafford Act permits FEMA to anticipate declarations, and pre-stage federal
personnel and resources when a disaster that theatens human health and safety is imminent, but not
yet declared. FEMA canot provide federal assistance until an emergency or major disaster
declaration is made.

The Homeland Security Act of 2002 (Homeland Security Act) created the United States Deparent
of  Homeland Security (DBS) and realigned FEMA, previously an independent agency, as par of
DHS withi the Emergency Preparedness and Response Directorate. In addition, the Homeland
Security Act and other Presidential 
 directives established a new, unfied, all-hazds framework and
plan for futue responses to terrorism, natual disasters, special events, and emergencies. Ths plan,
referred to as the National Response Plan, which was revised and renamed the National Response
Framework in January 2008, establishes a comprehensive all-hazards approach to enhance the abilty
of  the United States to manage domestic incidents. The National Response Plan incorporates best
practices and procedures from incident management disciplines such as emergency management,
law enforcement, firefighting, public works, public health, responder and recovery worker health and
safety, and emergency medical assistance, and integrates them into a unfied strctue. It forms the

basis of 
   how the federal governent coordinates with state, local, and tribal governents and the
private sector during incidents, and establishes lead agencies for many different aspects of possible
disaster response.

The National Communcations System (NCS) plays an important role in assistig the federal
executive branch in managing telecommuncations fuctions and responsibilties, and in
 coordinating the plang and provision for national security and emergency preparedness

 communcations. NCS was established during the 1960s to lin, improve, and extend
 communcations facilties and components of 
          various federal agencies. With the inception ofDHS
 in 2003, NCS was transferred from the Deparment of 
          Defense to DHS' Information Analysis and

 Infrastrctue Protection Directorate, and in 2005, was internally shifted to the Directorate for

 Preparedness. In 2007, portons of the Directorate for Preparedness were consolidated into the new
 National Protection and Programs Directorate (National Protection and Programs). NCS is a
 program activity withn ths DHS diectorate and receives various administrative support and other
 fuctions from other DHS offces. Typically, the Chief 

                                                                                 within National
                                                                      Financial Offcer's offce



 Protection and Programs either performs or coordinates the budgeta, financial management, and
 procurement activities on behalf ofNCS.

 NCS receives anual appropriations for caring out its baseline mission. It may also receive
 mission assignment fuding from FEMA to car out incident response intiatives under the National
 Response Plan.




                          NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding         3
Aside from its ongoing roles described above, NCS also has an importt role under the National
Response Plan. NCS' responsibilties under the National Response Plan are an extension of its
ongoing mission. One of               the 15 priar response activities under the National Response Plan is

restoring vital communcations fuctions afer an incident of national significance. Emergency
Support Function #2 of 
 the National Response Plan calls for NCS to coordinate federal actions to
provide the required temporary national security and emergency preparedness telecommuncations
and the restoration of the telecommunications infastrctue. It also is to support federal
deparents and agencies in the procurement and coordiation of telecommunications services from
the telecommuncations and information technology industr during incident response.

On August 29, 2005, Hurricane Katrina devastated the Gul Coast states of Alabama, Florida,
Louisiana, and Mississippi with Category Three winds and torrential rains. By September 9, 2005,
Congress passed legislation that provided over $63 billon to DHS for disaster relief. In the
aftermath of the Gulf 
 Coast Huricanes, FEMA issued NCS 23 mission assignents with authority
to incur costs up to $13.2 millon as of March 31, 2006.

NCS used several supporting agencies in carng out its role. Pursuant to the National Response
Plan, which governs the relationship among these entities, NCS requested assistace from the u.s.
General Services Administration (GSA), the Federal Communcations Commssion (FCC), and the
U.S. Deparment of  Defense. Of 
 the $13.2 millon, NCS authorized GSA and FCC $8.8 milion for
18 mission assignments and tasked the Defense Information Technology Contracting Organzation
with procurement responsibilities for $4.4 milion for the other 5 mission assignments.




                          NCS' Management of   2005 Gulf Coast Hurricanes Mission Assignment Funding          4
Results of Review
Ths section presents the results of our assessment ofNCS' internal control environment used to
administer mission assigned tasks and fuding, and our tests to evaluate mission assignent
procurements, expenditures, and supporting documentation for reimbursement bilings.



Our results are presented sequentially, as NCS would have progressed in its plang and
administration of the 23 mission assignments, staing with organizig the effort and ending with

steps for obtaing reimbursement for costs incured on FEMA's behalf. In addition to intervewig
cognizat NCS management stf and National Protection and Programs managers, including the
Chief    Finacial Offcer, we conducted extensive testing of                         transactions to assess initial preparedness
to implement the mission assignments; procurement, budgeta control, and financial management
system support avaiable and used; conformity of outlays with the mission assignent; controls over

receipt, acceptace, and payments for goods and services procured; asset accountabilty; and validity
and support for reimbursement claims to FEMA.

The primar focus of our work was the five mission assignments for which NCS biled FEMA
directly. These five mission assignments composed over 90% of 

                                                                                           the biled expenditures under the


23 NCS mission assignments. In June 2006, when we intialy requested a detailed list of all mission
assignment obligation, expenditue, and reimbursement biling transaction activity, NCS had not
received all the billngs from the Deparent of 
 Defense' s Defense Information Technology
Contracting Organzation. Subsequently, in Januar 2007, NCS provided us with procurement
documentation and bils submitted to FEMA for reimbursement. In May 2007, NCS provided
supporting documentation for all amounts that the Defense Inormation Technology Contracting
Organation had biled to NCS though September 2006. We examined all supporting
documentation provided for the dua purose of determinng whether the payments made to vendors
were valid, as well as whether the documentation met FEMA's criteria for reimbursing NCS for its
 costs incured under the five mission assignments identified above.



 We determined that no costs were incurred under 15 of 

                                                                                  the 18 remainig mission assignments.

 Bilings by 
     the FCC and GSA to FEMA, related to the other thee mission assignments, amounted to
 less than $400,000. The followig table details amounts provided to NCS under 

                                                                                                           the 23 mission
 assignents, amounts expended and biled to FEMA, planed amounts to be deobligated, and
 amounts for which fmal decisions were pending as of May 2007.




                           NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding                               5
Table 1 Biled and Unbilled Amounts, 2005 Gulf Coast Hurricanes Expenditures Through March 31, 2006



                                                                                                                  Biled
                                                                                            Total           Expenditures
                                                                                       Obligation                  Activity
                                                                        #             Amount per                  Through          Unbiled
   Mission Assignment Disposition                                  Issued                    FEMA               3/31/2006          Amounts
   Fulfilled through the Defense Information
  Technology Contracting Organization                                   5         $       4,350,000         $    4,034,908    $     315,092
   Executed through subtasked agencies (GSA &
   FCC)                                                                 3                 1,640,000                348,801         1,291,199
   No activity (to be de-obligated), initially
   subtasked to GSA & FCC                                               15                7,230,685                     --­        7,230,685

                            TOTALS                                      23      $. 13~220,685               $ 4,383,709           $ 8,836,976
                                                                                      .




A. Planning and Procedures for Procurement, Property Accountabilty, and
   Financial Management
We determined that NCS and its supportng DHS entities had not adequately prepared for the
various administrative tasks associated with mission assignments from FEMA. As discussed in
more detal in the followig section dealing with procurement, NCS had ongoing business
relationships with GSA, the FCC, and the Defense Information Technology Contracting
Organzation on which it relied for caring out the mission assignment work associated with the
2005 Gulf 
 Coast Huricanes. However, NCS was not fully prepared for unexpected tyes of
procurements, perhaps parially because it incorrectly assumed that mission assignments conveyed
their own authority to order goods and servces.

NCS also did not have procedures for identifying assets that would need to be explicitly accounted
for and tued in to FEMA prior to biling for the associated costs. This matter is discussed in more
detail in Section C of ths report concerng accountable assets.

NCS was not prepared to develop the additional supporting documentation for reimbursement that
FEMA requires from agencies receiving mission assignment fuds. These requiements, which call
for more global assessments of                                                  this report.
                                                what was spent, are explained in detail in Section E of 


The former Chief                    National Protection and Programs and NCS managers said
                           Financial Offcer of 


they were unaware of the documentation requiements established by FEMA as a condition of
reimbursement. In addition, NCS did not require the supportg agencies on its mission assignents
to provide the type of supporting documentation that FEMA required from NCS for reimbursement.

During 2006, NCS prepared an Emergency Support Function #2 operations        manuaL. Whle the
manual focuses priarily on the coordination and operational aspects of restorig communcations,
it does mention in broad terms its responsibilty for having contracts in place and accountabilty for



                         NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
                                                                                                                                                6
equipment items. Additional details and specificity regarding its responsibilty for the matters
discussed in ths report are needed to avoid recuring problems.


RECOMMENDATIONS

We recommend that NCS:

     . Recommendation #1: Develop detaled procedures for admsterig the procurement,
          propert accountability, and fiancial management responsibilties associated with receiving
          mission assignments from FEMA.

     . Recommendation #2: Provide training to key NCS managers and staff on the unque
           requirements ofFEMA's mission assignment fuding.


B. Disaster Response Procurement and Contract Monitoring Processes
NCS experienced substantial delays in finalizing five new vendor contracts related to two mission
assignents. Although we did not identify any delays in satisfying mission assignment objectives,
these five contracts accounted for 72% of 
                     the $4.1 milion in goods and services procured though
the Defense Inormation Technology Contracting Organzation for the 2005 Gulf Coast Huricanes
mission assignment activity. These contracts, aranged through DHS' Offce of                          Procurement
Operations, formalized agreements with telecommunications and service providers after NCS had
orally commtted the governent to purchase goods and services. Interagency agreements between

the Defense Inormation Technology Contracting Organization and DHS, on behalf ofNCS,
identified periods of 
 performance that extended beyond the dates staed in FEMA's authorized
mission assignments.





1. Finalizine: Vendor Contracts

The five new contracts were entered into for equipment and support service to restore emergency
communications in the disaster area. While they were all signed in late April 2006, we determined
that vendor activity on some of 
      these contracts had been completed as early as September 2005.
None of 
    the   expenditures   incured under the new vendor contracts were biled to the government
until May 2006. In progress reports to FEMA and in response to FEMA's inquiies as to whether
these mission assignents could be closed out, the Federal Emergency Communcations Coorditor
at the Joint Field Offce said that several mission assignments could not be closed out because no
billngs had been received from the vendors.





                          NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding                      7
RECOMMNDATION

We recommend that NCS:

     . Recommendation #3: Monitor procurement activities of subtasked agencies to ensure that
           contracts are completed expeditiously.


2. Procurements of Goods and Services


NCS' initial field assessment ofhurIcane- and flood-related communcations damage determined
that it would be necessar to acquire equipment and industr support services to restore critical
communcations capabilities. The Logistics Anex of 
  the National Response Plan requires agencies
to check FEMA's Telecommunications Information Management and Control System to determine
whether an asset is in FEMA's inventory before the decision is made to buy on the open market.
Although there was no documentation confrming that ths was done, NCS management officials
told us that they first consulted with FEMA on the availability of 
            the requied equipment. Upon
determation that the item was not in FEMA's inventory, FEMA used the mission assignment
process to satisfy the requirement.

NCS management offcials informed us that they were under the impression that FEMA's mission
assignents conveyed separate procurement authority, which may have exceeded their procurement
capabilties. Proceeding with that understanding and considering the immediate need, NCS
contated vendors and ordered the equipment, instalation and setup services, and associated support
services. After determining that they did not have the requisite procurement authority, NCS tued
to DHS' Offce of 
 Procurement Operations, which, under The Economy Act of 1932 (31 U.S.C. §
1535), entered into interagency agreements with the Defense Information Technology Contracting
Organzation to formalize the agreements with vendors. Weare not makng a recommendation for
this condition because it has been previously addressed in Section A of this report.


3. Procurement Periods and Mission Assi2lment Terms

Interagency agreements between the Defense Information Technology Contracting Organization and
DHS, executed on behalf ofNCS, had periods of performance that extended beyond the dates stated
in FEMA's authoried mission assignments. We identified some orders and expenditues that
exceeded the period ofpedormance for two of 
  the five mission assignents. Whle these
expenditures were for items and services that could have been anticipated to be bought under these
mission assignments, they were ordered afer the cutoff date of the mission assignment. Therefore,
we consider the amounts associated with these events to be questionable costs.




                          NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
                                                                                                              8
                        performance for the eight! mission assignments and identified two that
We analyzed the period of 


had been extended by FEMA. NCS officials indicated to us that for several mission assignments, it
was not possible to completely execute the tasks with the scheduled timeframes because its sta
was bared from the afected areas due to flooding and associated health issues. We noted that the
circumstances surounding the mission assignents for which costs were incured beyond the

performance period were essentially the same as those for another mission assignment that had been
extended.

While this issue may represent a technical noncompliance, the Financial Management Support
Anex of 
  the National Response Plan refers to the general requirement that agencies implement
effective internal controls and financial practices in admstering mission assignment fuds.
Inherent in these gudelines would be a key budgeta requirement that fuds are available for use
only during the specified timeframe.

One additional observation is that the five interagency agreements between DHS' Offce of
Procurement Operations on behalf ofNCS and the Defense Information Technology Contracting
Organzation called for a minimum 12-month period of 
                    performance. They did not specifically refer
to the stipulated performance periods in the two underlyig mission assignments, which estimated
completion no later than June 2006 (including mission assignment extensions).


RECOMMENDATIONS

We recommend that 
              NCS:

      . Recommendation #4: Ensure that performance periods in procurement vehicles are
            consistent with those in the underlying mission assignments.

      . Recommendation #5: Request extensions for all mission assignments immediately upon
            notice of circumstances waranting such.


 C. Disaster Field Command Location Policies and Procedures
 NCS did not provide documentation to verify that all property acquired and used during the 2005
 Gulf Coast Huricanes had been properly accounted for and tued over to FEMA. We identified at
 least $824,600 ($11,200 for satellte telephones and $813,400 estimated cost for emergency 911
 vehicles and antenna) that NCS acquired and biled to FEMA that should have been retued to
 FEMA. The estimated portion of this cost was based on our analysis of the related procurement,
 which identified ordered items and associated cost. Accountabilty for property was weakened by
 inadequate management controls.

 1 Ths number includes the five mission assignments for which NCS biled FEMA and the other three mission
 assignments for which costs were incurred, but which GSA and FCC biled FEMA directly.


                              NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding                  9
1. Bud2et Obiect Class Codin2


NCS and National Protection and Programs financial managers said they decided to obligate all of
the mission assignent fuds subtasked to the Defense Information Technology Contractig
Organzation under budget object code 2500 seres (Other Contractual Serces). Therefore,

purchases of equipment, set-up and intallation, and wireless and satellte/telephone serices were all

biled under that budget object code. The recording ofthese items as contractual serices inhibits
FEMA's abilty to identify equipment purchases. For example, approximately $1.7 milion
expended under one mission assignent included a significant amount of telecommunications
equipment with a designated purose of supporting emergency 911 calls that should have been
segregated and coded to the budget object code 3100 series (Equipment).

                                                                       fuds, and FEMA's
Budget guidelines establish the codes to be charged for different uses of 


"Mission Assignent Biling and Reimbursement Checklist"i specifically notifies agencies that
additional reportng requirements are established for equipment purchases considered accountable
proper over $1,000. FEMA's "Mission Assignent Biling and Reimbursement Checklist" also
instrcts agencies that prior to biling for equipment purchases, the equipment must be tued over to
FEMA.

When NCS biled FEMA for reimbursement of costs, it used the same budget object code used when
obligatig the mission assignent fuds. One way that FEMA is able to gather the data on
equipment purchases is its review of 
        bils, detailed by budget object code, as submitted to FEMA for
reimbursement. Thus, use of 
          the correct budget object code is an important interal control from
FEMA's perspective. Correct budget object codes allow FEMA to examine agencies' bilings to
identify accountable equipment for which reimbursement is being requested and to confirm that the
biling agency has delivered the proper to FEMA. Although FEMA' s regional staff, who may
have fist-hand knowledge of equipment purchases, review these bilings, correct coding is an
important first step. With regard to the equipment purchases identified above, NCS biled for, but
did not tu over, all equipment items to FEMA.


RECOMMNDATIONS

We recommend that NCS:

      . Recommendation #6: Ensure correct budget object codes are used when obligating,
          recordig expenditues, and biling for mission assignent fuds.



 i Requiements established by FEMA for supporting documentation and reimburement transactions on their website
 (htto://ww.fema.gov/governent/ilinst.shtm) as referred to in the Financial Mangement Support Anex of 

                                                                                                          the
 National Response Plan (page FIN-5).


                          NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding               10
     . Recommendation #7: Use budget object code coding from agencies' budgetary and
          financial management records, procurement instrents, and other perinent data to identify

          and track accountable property purchased with mission assignent fuding.



     . Recommendation #8: Reduce the amounts biled to FEMA by the cost of property not
        tued over to FEMA for futue use.


2. Control Over Accountable Items


In May 2007, we were informed byNCS that the Emergency 911 equipment was stored in a
governent facility in Louisiana. We were also informed that the vendor retained title to this asset
although FEMA was biled for the equipment. This occured because the vendor previously
attempted to convey the title to FEMA, but was unable to do so because they could not identify and
establish contat with an appropriate, authorized FEMA representative. Since NCS was ultiately
responsible for the equipment, it should have communicated with the vendor to obtain the title and,
thus, be in a position to properly convey title prior to, or concurrent with, biling FEMA for
reimbursement for this asset. As of April 2007, FEMA represented that the equipment was still
being used in Baton Rouge. However, since FEMA did not have title to this asset, it was unable to
take possession or physical custody of this equipment.

NCS could not locate or determine the status of 16 of 
                           the 100 portable satellte telephones purchased
for use durng Hurcane Rita. Also, NCS could not provide us with any data such as receiving
reports, property transfer documents, or any other data necessary for tracking the location of the
telephones. NCS offcials said they verfied the existence of 

                                                              the remaing 84 portable satellite
telephones that were in FEMA's possession. We were able to successfully confrm the inclusion of
these remainig telephones in FEMA's property management 

                                                                                               system, on a test basis, by comparg
the seral numbers and barcodes listed on the vendor invoice. Because the aggregate cost of 

                                                                                                                             these
telephones is considered to be material, it would be reasonable and necessar for NCS to adopt the
relevant physical control procedures described in FEMA's "Personal Property Management
Program" manuai.3




RECOMMENDATIONS

We recommend that NCS:

      . Recommendation #9: Obtain the legal title(s) for the Emergency 911 telecommunications
          equipment and convey ownership to FEMA.




 3
     FEMA Manual 6150.1, "Personal Propert Mangement Program."


                          NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding                                   11
     . Recommendation #10: Determine whether there is a continuing need for the Emergency
         911 telecommuncations equipment at its curent location and, if the imediate need for the
           asset has been satisfied, retreve and physically transfer it to a FEMA-designated location.

     . Recommendation #11: Prepare a lost or stolen propert report for the 16 missing satellte
        telephones and submit it to FEMA in lieu of returng the property.

     . Recommendation #12: Improve physical controls over the issuance of accountable property
           to ensure accountabilty for losses.


D. The Retention of Documentation Supporting Expenditures

NCS did not have sufficient supporting documentation for approxiately $965,614 of                                   the $4.4
                                                              September 30, 2006. We identified
milion it had expended on the eight mission assignments as of 


these unupported costs by testing ten biled expenditure transactions totaling $4.1 milion. These
ten transactions represented approximately 90% of total outlays under the mission assignents
issued to NCS. FCC and GSA biled the remaining 10 % of 
     tota outlays directly to FEMA. We
requested the underlying contracts, purchase orders, invoices, and acceptance and receipt
documentation for the ten transactions and conducted various test procedures that were designed to
establish the propriety of the expenditues. The results of this testwork revealed that four of the ten
transactions, totaling approximately $965,614, were not fully supported as discussed below.

We noted that NCS' approval document (the Task Order Invoice Review/Approval Form) was not
provided for $952,934 of expenditures incured by one of  the two vendors that were tasked under
existing contracts. These expenditures were made pursuant to interagency agreements between the
Defense Inormation Technology Contracting Organization and NCS. Under the established
payment process, pursuant to these interagency agreements, before an invoice can be processed for
payment, the primary or alternate NCS task monitor must verify that the goods or services indicated
on the invoice were received and conform to the prescribed terms and conditions. This approval
must be evidenced by NCS' submission of a completed Task Order Invoice Review/Approval Form
to the Defense Information Technology Contracting Organzation's Financial Management Services
Division. The submission of                  ths fuly executed form by NCS to the Defense Information

Technology Contracting Organation, indicating NCS' approval, constitutes acceptance of       the
service as satisfactory and authorizes the Defense Inormation Technology Contracting Organzation
to pay the vendor's invoice. We requested but did not receive any of 
 the approving forms from
NCS. Curent policies require that such supporting documentation be retained for 6 years and 3
months.

Our testwork identified a second expenditure representing an administative fee that was charged to
NCS by the Defense Information Technology Contracting Organzation for initiating and overseeing
one of 
 the support contracts. We noted that the amount charged exceeded the amount allowed under

the interagency agreement by $12,680. This amount has been categorized as a questioned cost.



                          NCS' Management of2005 Gulf             Coast   Hurricanes Mission   Assignment Funding
                                                                                                                               12
NCS did not bil FEMA for any expenditues coded under the budget object codes of 
 Personnel
Compensation (11), Personnel Benefits (12), and Travel and Transportation (21). These
expenditures were biled directly to FEMA by the support agencies (GSA and FCC) without NCS
being par of        the expenditue authoriation and approval process, although NCS has ultimate

responsibility for the underlying mission assignents. FEMA accepted the documentation and these
agencies were reimbursed.


RECOMMNDATIONS

We recommend that NCS:

      . Recommendation #13: Implement procedures to retain documentation to support its
          approval of invoices for payment.

      . Recommendation #14: Establish policies and procedures to ensure that service fees paid to
          other federal agencies are appropriate and conform to the terms and conditions of 
 the
          interagency agreements.


 E. The Mission Assignment Reimbursement Biling Process
 We noted that NCS did not provide FEMA with the requied supportg documentation for the
 $4.1 millon of expenses that it biled and received reimbursement from FEMA under the existing
 mission assignents. These bilings were submitted to FEMA between Februar 2006 and
 September 2006. It was also noted that FEMA submitted several unsuccessfu requests to NCS for
 the required supportng data, and in April 2007, retracted the reimbursements previously paid to
 NCS.

 As the steward of the Disaster Relief Fund, FEMA has the authority to specify the supporting
 documentation requirements for all federal agencies providing support and requesting
 reimbursement from the Fund.4 Under the standard "Intragovernental Business Ru1es,,,5 the
 ordering and performing agencies agree to the form and content ofthe performing agency's
 documented evidence of performance to be provided in support of Intra-Governenta Payment and
 Collection System6 transactions. Generally, the agreed-upon form and content includes the
 information necessar to identify the tranaction, its associated interagency agreement, and the

 4 National Response Plan, Financial Management Support Anex, page FIN-5.
 50MB Memorandum M-03-0 1, "Business Rules for Intragovemmenta Transactions;" Treasury Financial Manual,
 Volume I, Bulleti No. 2007-03, "Intragovemmental Business Rules;" and Treasury Financial Manual, Volume 1,
 Par 6,Chapter 4000, "Intra-Governental Payment and Collection System."

 6 The Intr-Governental Payment and Collection System's primar purose is to provide a standardized interagency
 fud transfer mechanism for Federal Program Agencies. It facilitates the intragovemmental transfer of 
   funds, with
  descriptive data from one agency to another.


                           NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding                     13
charges by budget subobject class. Due to the debilitating impact of disaster response activities on
normal agency internal controls,FEMA augmented its supporting documentation requirements to
address the increased risk of internal control weakesses that often occur durng the life-saving and
lie-sustaining rescue and support operations involved with disaster responses. In addition to
inormation necessar to identify a transaction and the associated mission assignment, FEMA
requires the following:

    . Description of the goods received or services provided;

    . Breakdown of hours incurred in support of personnel services;
    . For indiect costs, the percentage applied and a description of the costs included in the cost

          pool;
    . For contract services, the contract number, vendor name, total contract cost, and a description

          of its purose;
    . For propert acquisitions:

          . A description of 
   the item, vendor name, and unt cost for all non-expendable or sensitive
                items greater than or equal to $1,000, and
          . The retu of all items described above or an agreement to waive this requiement;

     . For property leased, a description of 
          the item, vendor name, and unt cost;
     . Identification of motor vehicle costs;

     . Identification of costs subtasked to another agency; and

     . All "Other Costs" defined.




1. Documentation to Support Biline:s

We observed that NCS had not developed an adequate understandig of its internal business process
requiements necessary to develop and compile the documentation needed to support expenditures
incured under 5 of 
          the 23 mission assignments. NCS and National Protection and Programs

Business Offce, which provides administrative support to the operative entities within National

Protection and Programs, and the financial management division of 
        the U.S. Immgration and

Customs Enforcement, which handles National Protection and Programs' Intra-Governenta
Payment and Collection System transactions, had not coordinated with each other in identifyng or
defining the business processes necessar for generating the supportg documentation for billngs.
 This includes establishig the person responsible for preparing the additional supporting

 documentation.

 The former Chief 
 Financial Officer of
 the National Protection and Programs and NCS managers said
 that they were not aware of and, therefore, had not discussed matters related to obtaning and
 packaging the additional supporting documentation FEMA required as a condition of
 reimbursement.




                          NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding         14
FEMA highights these requirements on the standard transmittal 

                                                                                    letters for mission assignents.
These letters cite the page on FEMA's website7 that contains the detailed requirements and
instrctions regarding how the documentation requirements may be satisfied. In addition, the
Financial Management Support Anex of 

                                           the National Response Plan discusses these documentation
requirements and directs the reader to the website as well. It should be noted that the heads of all
major federal deparents and agencies sign the National Response Plan, thereby agreeing to

provide such documentation, whether they are in a primar or supportng role for mission

assignents.

NCS' initial reimbursement bilings of approximately $4.1 millon, submitted to FEMA between
Februar 2006 and September 2006, contaied the supporting documentation typically required with
Intra-Goverental Payment and Collection System transactions. Because FEMA's requirements

are more extensive, we deterined that the supporting documentation accompanying the initial NCS
bilings would need to be augmented. We were informed that durng December 2006, FEMA met
with NCS management to discuss the information needed and received a commitment that such
information would be provided. FEMA's records indicate that it also communcated with
Immgration and Customs Enforcement personnel and informed them that the additional information
supporting bilings was stil needed, in the absence of which FEMA would charge back the amounts
 previously obtained though the Intra-Goverental Payment and Collection System.



 Despite FEMA extending the deadlines for submission of the required data, NCS did not provide the
 supportng documentation to FEMA. Durig March 2007, FEMA decided that the only remaining
 option was to charge back the reimbursement, and in early April 2007 it charged back the amount of
 approximately $4.1 milion.



 We deterined that NCS has most of 
                       the information that is needed to satisfy FEMA's
 reimbursement biling supporting documentation requirements. Durg May 2007, NCS provided us
 with supportng documentation that the Defense Information Technology Contracting organization
 would have used as a basis for paying vendor invoices under contracts issued against the five
 mission assignents. We had requested this type of supporting information on numerous occasions
 beginning in June 2006. While we understand that NCS obtained this information to satisfy our data
 requests, NCS should have requested and received information from the Defense Information
 Technology Contracting organation prior to or shortly after being biled by the Defense
 Information Technology Contractig Organation, in order to meet FEMA's reimbursement biling
  supporting documentation requiements.




  7 "Mission Assignment Biling and Reimbursement Checklist" (http://www.fema,gov/governentfbilinst.shtm).


                            NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding                  15
RECOMMNDATIONS

We recommend that NCS:

   . Recommendation #15: Develop and communcate stadard operating procedures for
        reimbursement bilings, including specifying the extent of supporting documentation
        requied.

    . Recommendation #16: Train NCS sta and collaborate with National Protection and
        Programs Business Offce to adequately prepare for effective admistration of 

                                                                                                    the financial


        aspects of future mission assignments.

    . Recommendation #17: Designate an individual or position who wil have the primary
        responsibilty for compilng applicable supporting documentation for each mission

        assignment and who will serve as the point of contact with FEMA for biling and
        reimbursement puroses.



    . Recommendation #18: Provide FEMA with supporting documentation that meets its
        reimbursement biling requirements.


2. Subtasked Aeencies Biled FEMA Directly

NCS subtasked FCC and GSA to provide assistace on the other 18 mission assignments. These
entities incured costs amounting to approximately $349,000 on three mission assignments.

Although mission assignent gudanceS requires subtasked agencies to obtain approvals from the

requesting agency on reimbursement requests, we noted that the FCC and GSA biled FEMA

directly, without review by NCS, and were reimbursed.



RECOMMENDATION

We recommend that NCS:

    . Recommendation #19: Ensure that any supporting agency tasked with mission assignment
        work on behalf ofNCS provide biling and supporting documentation to NCS for approval
        prior to submission to FEMA.




8 The Financial Management Support Anex of the National Response Plan (page FIN-5) directs the primar agency to
which the mission assignent has been issued to review and approve all expenditues incured and supporting

documentation for reimbursement requests from agencies that provided supporting services in executing that mission

 assignment.



                       NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding                       16
3. Fundine: Status for Mission Assil!ments Issued to NCS

FEMA authorized NCS to spend up to $13.2 millon on 23 mission assignents. As of 

                                                                                      May 2007,
approximately $4.4 milion related to 8 of the 23 mission assignments had been biled to FEMA.

NCS provided us with letters addressed to FEMA certifying that there would be no fuher requests
for payments submitted against 16 of the 23 mission assignents. The remaig $1.6 milion,
which wasunbiled (which includes $13.2 milion authorized, minus $4.4 milion biled and $7.2
milion available to be closed and deobligated), was associated with a mission assignent subtasked
to GSA and the Defense Information Technology Contracting Organization for which a final
determtion had not been made.




RECO~ENDATIONS
We recommend that NCS:

      . Recommendation #20: Assess the curent status of 
                           the unbiled amount of$I.6 millon and
            submit all additional bilings to FEMA expeditiously and certify any amounts to be
            deobligated.

      . Recommendation #21: Submit to FEMA the letters certifying that no fuer requests for
            payment will be submitted agaist the 16 mission assignments.





                           NCS' Man.lgement of 2005 Gulf Coast Hurricanes Mission Assignment Funding                   17
Management Response and OIG Analysis

The National Protection and Programs Directorate concured with all the recommendations we
offered to improve the National Communications System's management of 
   mission assignment
fuding from the Federal Emergency Management Agency. During the audit and afer our
fieldwork, the National Communcations System worked to improve its operations involving mission
assignents. All recommendations except recommendation 16 have been resolved and closed

because they have been implemented. We consider recommendation 16 resolved because steps have
been taken to implement it; however, ths recommendation wil remain open until it has been fully
implemented. The National Protection and Programs Directorate anticipates this recommendation
will be fuly implemented in the first quarr of calendar year 2009. We will close this
recommendation when the National Protection and Programs Directorate provides evidence it has
been implemented.




                NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding      18
Appendix A
Objectives, Scope, and Methodology



DHS Offce ofInspector General (DIG) contracted with Regis and Associates, PC, to assess NCS'
mission assignent management and financial management controls and offer recommendations for
any needed improvements. Ths effort is par of                          the DHS DIG to ensure
                                                                          the overall objective of

accountabilty in the management and expenditure of funds for relief and recovery efforts relative to
disasters.

The scope of 
this review includes the 23 mission assignments issued to NCS by FEMA for disaster
response assistace in the Gulf Coast region resulting from Huricanes Katrina, Rita and, Wilma
(2005 Gulf 
 Coast Huricanes); the management processes and financial management controls
applicable to these mission assignments; and the related contracts, expenditures, and reimbursement
bilings for the period August 29,2005 though March 31, 2006. Our review objectives were to
assess whether the management processes and financial management controls were properly
designed and implemented, and to determine whether the contracts used, expenditues incured, and
reimbursements requested were authorized, valid, and appropriately supported.

The agreed-upon procedures were performed in accordance with stadards established by the
American Institute of Certified Public Accountats and guidance from the Office of Management
and Budget and GAD.

We reviewed selected              previous DHS DIG and GAD reports concerning NCS' 2005 Gulf          Coast
Huricanes mission assignment management to familarize ourselves with prior recommendations,
reguations, and guidance applicable to NCS' processes and controls. The results of these reviews
were incorporated into our risk assessment for ths engagement and our reported results.

The management processes and fiancial management controls assessment included information
gathering through interviews with appropriate personnel, as well as evaluating the management
controls and process design. These evaluations were done through review of curent policies and
procedures, and those that existed during the 2005 Gulf Coast Huricanes.

The determination as to whether the contracts used, expenditues incured, and reimbursements
requested were authorized, valid, and appropriately supported included our review of supporting
documentation made available by NCS in each of these areas. We obtaned a list from NCS of all
procurement, expenditure, and reimbursement biling transactions from its financial management
system for the period August 29,2005 though March 31, 2006. These tranactions were stratified
among procurements, expenditures, and reimbursement billng categories for the performance of test
procedures specifc to each transaction category.

For our tests of 
      procurements, we determined that these activities were all outsourced to the Defense
Information Technology Contracting Organzation and used a high-dollar criterion to select eight
procurement requests that were included with the interagency agreement with the Defense
Information Technology Contracting Organization, which represented $4.1 millon or 93% of              the
$4.4 millon gross obligation total actively managed by NCS.




                          NCS' Management of 2005 Gulf Coast Hurricànei¡ Mission Assignment Funding
                                                                                                              19
Appendix A
Objectives, Scope, and Methodology



For our tests of expenditures, we stratified expenditure transactions by budget object code into
categories with similar processes and controls. These categories are as follow:

     . Other contractual services and rent, communcations, and utilties;

     . Personnel compensation and benefits;

     . Equipment;

     . Supplies and materials; and

     . Travel and transporttion of persons.



We selected all tranactions associated with a billng to FEMA with incured expenditue activity
through March 31, 2006, and related reimbursement bilings though September 30, 2006. The
majority of 
 the transactions were categorized by NCS as Other Contractual Services.

When sumarized transactions were selected using the high-dollar value criterion, we made
additiona judgmental selections and performed detailed tests on individua personnel and travel
expenditues withn the sumar transaction total.

For our tests of   reimbursement bilings, we selected all eight bilings representing $4.1 milion of   the
total $4.4 millon of reimbursements requested though March 31, 2006.

Our fieldwork was conducted from April 26, 2006 through June 1,2007, and included visits to NCS
headquaers in Arlington, Virgina, and its business offices at the National Protection and Programs
Directorate in Washington, DC.




                     NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding          20
Appendix B
Recommendations



Recommendation #1: Develop detailed procedures for administering the procurement, property
accountability, and finacial management responsibilties associated with receiving mission
assignments from FEMA.

Recommendation #2: Provide training to key NCS managers and sta on the unque requirements
ofFEMA's mission assignment fuding.

Recommendation #3: Monitor procurement activities of subtasked agencies to ensure that contracts
are completed expeditiously.

Recommendation #4: Ensure that performance periods in procurement vehicles are consistent with
those in the underlying mission assignments.

Recommendation #5: Request extensions for all mission assignments immediately upon notice of
circumstaces waranting such.

Recommendation #6: Ensure correct budget object codes are used when obligating, recordig
expenditures, and biling for mission assignment fuds.

Recommendation #7: Use budget object code coding from agencies' budgeta and financial
management records, procurement instrents, and other pertinent data to identify and track
accountable property purchased with mission assignment fuding.



Recommendation #8: Reduce the amounts biled to FEMA by the cost of property not tured over
to FEMA for future use.

Recommendation #9: Obtain the legal title(s) for the Emergency 911 telecommunications
equipment and convey ownership to FEMA.

Recommendation #10: Determine whether there is a continuing need for the Emergency 911
telecommunications equipment at its curent location and, if the imediate need for the asset has
been satisfied, retreve and physically transfer it to a FEMA-designated location.

 Recommendation #11: Prepare a lost or stolen property report for the 16 missing satellte
 telephones and submit it to FEMA in lieu ofretuing the property.

 Recommendation #12: Improve physical controls over the issuance of accountable propert to
 ensure accountabilty for losses.

 Recommendation #13: Implement procedures to retan documentation to support its approval of
 invoices for payment.




                 NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding         21
Appendix B
Recommendations



Recommendation #14: Establish policies and procedures to ensure that service fees paid to other
federal agencies are appropriate and conform to the terms and conditions of the interagency
agreements.

Recommendation #15: Develop and communcate stadard operating procedures for
reimbursement bilings, including specifying the extent of supporting documentation required.

Recommendation #16: Trai NCS staff and collaborate with National Protection and Programs
Business Offce to adequately prepare for effective administation of the financial aspects of futue
mission assignments.



Recommendation #17: Designate an individua or position who will have the priar responsibilty
for compiling applicable supporting documentation for each mission assignent and who wil serve
as the point of contact with FEMA for biling and reimbursement puroses.

Recommendation #18: Provide FEMA with supporting documentation that meets its reimbursement
biling requirements.



Recommendation #19: Ensure that any supporting agency tasked with mission assignment work on
behalf ofNCS provide billng and supporting documentation to NCS for approval prior to
submission to FEMA.

Recommendation #20: Assess the curent status of 
  the unbiled amount of $1.6 milion and submit
all additional bilings to FEMA expeditiously and certify any amounts to be deobligated.

Recommendation #21: Submit to FEMA the letters certifying that no fuher requests for payment
wil be submitted against the 16 mission assignments.





                          NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
                                                                                                     22
Appendix C
Schedule of Questioned Costs



Durg our review, we observed the conditions listed below, which are discussed in detail in the
Results of     Review section of        ths report. The following questioned costs were identified:




                Condition          Description                                                                  Amount
                      C            Accountable propert not returned to FEMA                               $     824,600
                      D            Unsupported other contractual services                                       965,614

                      D            Overbiling of contractual administrative fees                                  12,680

                                           . .

                                         TOTAL QUESTIONED COSTS                                           $ 1,802,894

             Note: "Condition" refers to the lettred section ofthe report in which the questioned costs are described.




                          NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
                                                                                                                           23
Appendix D
Management Comments to the Draft Report



                                                                         OfJÌt1! ¡i ihe Viile, Seueiiry
                                                                         .""lili"",11 Pr/lectiol/ 1/~i1 Prigflllll' Di,eCIIIT,(e
                                                                         u.s. \)cllíirllliciiiiil.III1ß1clalid Security
                                                                         W:iNliin¡:iim, DC 2115$



                                       DEe 0 1 2008

                                                                                   Homeland
                                                                                   Security
      MEMORANDUM FOR:	              Richard L. Skinner

                                    Inspector General


      FROM:	                        Robert D. Jamison
                                    lJ nder Secretary
                                                           1!.. i:C)~;.
      SUBJECT:	                     National Protection and Programs Directorate Draft Report
                                    Comments for the DHS/OIG Dr'lli Repol': National
                                    Commimicatio/1 Sysieii '.l Management ar 2005 Gii(lCoasl
                                    Hiirricanes Mission Assignment Fiinding


      This rcsponds to YOll September 26,2008, memorandum requesting wriiien commciis on the
      Offce olthe Inspector General (010) Dr'llì Report: NalÌonal Communications System's

      MCinagement 0/2005 GiilfCOcist Hurricanes Mission Assignmel1 Funding. Thank YOll for
      allowing the National Protection and Progrmns Directorate (NPPD) an oPPOltunity to respond.
      As thc coordinating agency for Emcrgency Support punction (ESF) #2, Communications, under
      the National Response Framework. the National Communications System continucs to refine and
      enhance the procedures and planning documeiintion for emergency communications response
      and recovery. We have made signilicant progress since Kmrinu working with our ESF #2
      partner agencies and the communications industry.

      We concur wiih ullihe rccommendiiiions and have provided responses and attachments
      supporting our continuing etrorts 10 improve our overall capabiliiy in support of Federal
      Emergency Management Agency (rEMA) activities during an Incident or Incident ofNationlil
      Significance. We are prepared to lc)lIow guidance provided to FEMA by ihe Mission
      Assignmcnt Working GroLlp as detailed in the Department of Homeland Security 010 rcpol"
      (010-08-34), FEMA's Preparedness Jor the Next Caiastrophie Disaster.

      Please do noi hesitate to contact me if YOll huve questions.

      Attachments

      cc: Greg Garcia, Assistant Secretary for Cybcrsecul'lY and Communications

             Jim Madon, DircclOl', National C0l111linications SystCl1




                NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding
                                                                                                                                   24
Appendix D
Management Comments to the Draft Report




                                       National Protection and Progras Directorate
                                          Dra Report Comments for the DHS/OIG
     Draf Report: National Communications System's Management of 2005 Gulf 

                                                                                              Coast Hurricane
                                              Mission As.çignment Funding


     Recommendation ##1: Develop detailed procedures for administering the procurement, property
     accountailty, and finacial management responsibilties associated with receiving mission
     assignments from the Federal Emergency Mangement Agency (FEMA).

          Response: The FEMA Mission Assignent (MA) Stadad Operating Procedurs (SOP)
          (Draft 9344.1-PR of June 12,2006 Atthment One) is the primar document directing
          administrtion, accountabilty and management responsibilties for mission asgnments.

          The National Communications System (NCS) developed and provided trining for Action
          Offcer (Atthment la), Support Specialist (Attchment I b), and Communication
           Restoration Group Supervisor Atthment (Attchment Ie), referencing the reponsibilties
          to be exècuted as outlined in the FEMA MA SOP. These NCS documents have been re­
          wrtten to provide fuer granularity in execution of 
 responsibilties. Each now includes the
          following statements:

           "Mission assignment processing must follow the FEMA Mission Assignent Standar
           Operating Procedure (SOP). The Joint Field Offce (JFO) Operations Section normal
           stafTmg also includes FEMA personnel dedicated to handling mission assignments with
           specifically assigned roles as Mission Assignent Managers, Mission Assignment
           Specialists, and Action Trakers.             who are the subject matter experts on mission assignent
           processes and the SOP.

           Disaser Emergency Communications (DEC) Branch Action Offcers, Support Specialists,
           and the Communications Restoration Group Supervsor must follow the FEMA Mission
           Assignent SOP and verify with the FEMA Mission Assignment Speialist tht they meet
           FEMA's reuirements for mission assignment execution, amendments, sub-taking, biling,
           reimburement, and closure."


      Recommendation ##2: Provide training to key NCS managers and staff on the unque
      reuirements ofFEMA's mission assignment funding.
            Response: Training on mission assignment management was provided to all ESF #2
            staeholders during yearly training events including ESF #2 Training Conferences:
            Homestead, FL, (May 2006), Oakton, V A, (December 2006), and New Orlean, LA, (June
            2007), conducted by NCS since Hurcane Katrina.

            Mission assignent trining wil continue to be a topic of discussion at future training
            sessions to ensure all personnel ar awa of the procedures. Consistent with FEMA MA
            SOP (Section i. General Overview, B. General Policies, Subpar 15, Attachment Two),
            FEMA wil trin NCS and Support Agency management and sta on the mission assignment




                       NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding                   25
Appendix D
Management Comments to the Draft Report




     process, policies, and procedurs at the December II, 2008, NCS Telecmmunications
     Training Seminar.


  Recommendation #3: Monitor procurement activities of sub-taked agencies to ensure that
  contracts ar completed expeditiously.

     Response: The procedurs the NCS follows for monitoring procurement activities of 

                                                                                                              sub-
     taked agencies are documented in the FEMA Mission Assignment SOP (Section II. Mission
     Assignent Operations and Procedurs, Par G. Subtaking Other Agencies, Subpar 6,
     Attchment Three). It states the Action Officer for the lead agency is responsible for
                            work and ensuring that it's completed within the authorized fuding
     monitoring the status of 


     and by the completion date.

      The current relevant ESF #2 
          job aids outlining monitoring procurement activities ofsub-
      taked agencies to ensure contrcts are completed expeditiously are Action Offcer (Section

      3.10.1, Atthment Four), Support Specialist (Section 2.4.1, Attahment Five), and
      Communications Restoration Group Supervisor (Section 4.3.10.1, Attachment Six).


  Recommendation ##: Ensure that performance periods in procurement vehicles are consistent
  with those in the underlying mission assignents.

      Response: The FEMA Emergency Management Specialist advised that the period of
      pedonnance specified on the mission assignments represents a short-tenn estimated
      timefre required to obtain the emergency assistace.



      They can be amended to change the period of perfonnance according to the FEMA Mission
      Assignent SOP (Secton 1. General Overview, Par B. Genera Policies, Subpar 8,
      Attchment Seven).

       Directions for NCS Action Offcer (Section 3.10.2, Attachment Eight), and Support
       Specialist (Section 2.4.2, Atthment Nine) detail the procedures to be followed.


   Recommendation #5: Request extensions for all mission assignments immediately upon notice
   of circumstaces warting such.
       Response: The ESF #2 Job Aids for deployed team members specifically state that
       extensions for mission assignments be forwarded in wrting to the appropriate FEMA MA
       Manager/Specialist, FEMA MA SOP (Section n. Mission Assignent Operations and
       Procedurs Para E, Mission Assignment Amendments, Attchment Ten).

       The Job Aids supportng this recommendation include Action Offcer (Section 3.7.1
       Attachment 11), Support Specialist (Section 5.2.3. 1 Attchment 12), and Communications
       Restoration Group Supervisor (Section 7.5.2 Attachment 13). These positions manage MAs
       in the field.




                        NCS' Management of         2005 Gulf    Coast Hurricanes Mission Assignment Funding          26
Appendix D
Management Comments to the Draft Report




    Recommendation ##: Ensure correct budget object codes are used when obligating, recording
    expenditures, and biling for mission assignment funds.

       Response: Guidance from the DHS finacial management chain of command was to use

       "other contracts" Object Class 2S on aU outgoing Interagency Agrements. Since funding for
       the contrcts supporting Hurcane Katrina was submitted via Interagency Agreement (IA) to

        Defense Information Technology Contrcting Offce (DITCO) Scott AFB, IL, for contract
       execution, Object Class 2S was used. The genera Offce of 

                                                                      Management and Budget (OMB)
        description of 
 Object Class 25.3 is for "Other purchases of goods and services frm
        Governent Accounts," with the specific description "Interagency agreements for
        contractu services (including the Economy Act) for the purchase of goods and services."

        Basd on this specific 10 finding, the NCS Plan and Resoures Brach wil, as documents
        process through for funding, use OMB Circular A-II. Section 83 Object Classification Guide
        (Attchment 14). 

                         to determine the appropriate code. For example, communications services
        requirements will cite Object Class 23 (Atthment 1 S); equipment purchases wil cite Object
        Class 31 (Attchment 16), etc. The entire OMB Circular can be found at the following link:
        htt://ww.whitehouse.~ov/omb/circularal l/currnt vear/all toc.htmL.




     Recommendation #7: Use budget object code coding from agencies' budgetar and rmancial
     management records, procurement instruents, and other pertnent data to identify and track
     accountable property purchased with mission assignment funding.

        Response: As explained in answer #6, NCS Plans and Resources wil ensure appropriate
        object classification codes are used on outgoing documentation. so it flows into the contrct
        and to the items ordered in capital propert records.


     Recommendation ##8: Reduce the amounts biled to FEMA by the cost of property not turned
     over to FEMA for future use.

         Response: Based on MA 1603DRLANCS04 (Attachment 17), an Interagency Agreement
         was processed to the DITCO, and the   contract was issued. The vendor deliverd all 100
         phones. issued invoices; the invoices were certified, and paid. Capital property
         accountabilty for the phones is being addressed by the NCS in conjunction with FEMA.
         DHS Fonn 200-2 Report of Surey (Attchment 18) for satellte phones has been submitted
         to FEMA for closeout.


     Recommendation #9: Obtain the legal title(s) for the Emergency 91 1 telecommunications
     equipment and convey ownership to FEMA.

     Response: FEMA Region VI sent the 91 1 mobile trailer title to the FEMA Program
      Management Division located at FEMA HQ, Washington. DC, for processing (Attachment 19).




                     NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding          27
Appendix D
Management              Comments to the Draft Report



      Recommendation #10: Determine whether there is a continuing need for the Emergency 91 I
      telecommunications equipment at its curent location and, if 

                                                                    the immediate need for the asset has
      been satisfied, retrieve and physically transfer it to a FEMA-designated location.

                                                           the 91 I Trailer in FEMA Region VII. The
             Response: FEMA stated they have possession of 


             FEMA logistics brach is Point of Contat (PaC) for trcking the vehicle (Attchments 20
             and 20a).



      Recommendation #11: Prepare a lost or stolen property report for the 16 missing satellte
      telephones and submit it to FEMA in lieu ofretuming the property.

             Response: The NCS prepard and submitted to FEMA a Report of Survey form (DHS Form
             200-2 (Atthment 18, Recommendation 8) documenting the loss of 16 satellte phones not
             recovered from response operations.


       Recommendation #12: Improve physical controls over the issuance of accountable property to
       ensur accountabilty for losses.

             Response: In the futue, normal procedures for contracting under emergency conditions wil
             be followed and processed using the FEMA Telecommunications Information Mangement
             and Contrl Systems (FEMA TIMACS). All standard FEMA procedures are used, including
              the contrting process, contracting offcer's technical representative, accounting process,

              delivery and receipt of goods or services, and propert accountabilty. Property requirements
              outside TIMACS will be handled in accordance with FEMA Manual 6 i 50. I, Chapter 2,
              Accountabilty of Personal Property, Par 2-4, CO Duties, 2-5 Custodian Duties, 2-6 Types

              ofProperty, 2-8 Serialized Equipment, 2-9 Property Records and 2-1 1, Accountabilty
              Requirements (Attachment 2 i).


        Recommendation #13: Implement procedures to retan documentation to support its approval of
        invoices for payment.

              Response: Normal procedures for contracting under emergency conditions will be followed
              and processed using (FEMA TIMACS). All standard FEMA procedures are used, including
              the contracting process, contracting offcer's technical representative, accounting process,
              delivery and receipt of goods or services, and propert accountabilty. Propert reuirements
              outside TIMACS wil be handled in accordance with FEMA Manual 6 i 50. i , Chapter 2,
               Accountabilty of 
        Personal Property, Par's 2-4, CO Duties, 2-5 Custodian Duties, 2-6 Types
               ofProperty, 2-8 Serialized Equipment, 2-9 Property Records and 2-11, Accountabilty
               Requirements.


         Recommendation #14: Establish policies and procedurs to ensure that service fees paid to
         other federa agencies are appropriate and conform to the terms and conditions of 

                                                                                                        the interagency
         agreements.

                             NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding                     28
Appendix D
Management Comments to the Draft Report




      Response: As described in the anwers to #12 and #13. future purchases under MA as
      directed by FEMA will be made through the FEMA TIMACS system. If an interagency
      agreement is required for an event such as Katrina, ESF #2 Action Offcers will work
      through the DHS Offce of 
              Procurement Operations (OPO). This will generate one
      document, known as an Independent Governent Cost Estimate, prepared by the requester.
      Fees chared by the acquisition agency are par of 

                                                                   the estimate and can be negotiated as
      appropriate.


  Recommendation #15: Develop and communicate standad operating procedures for

  reimburement billngs, including specifying the extent of supporting documentation required.


      Response: Stadad operating procedures for reimbursement bilings, including speifying
      the extent of supporting documentation required, were incorporated into the FEMA MA SOP
      (Section II. Mission Assignment Operations and Procedures, Par H Billng and
      Reimburement Attchment 22). The requirement is also a par of initial and refresher
       Contrcting Offcer Representative (COR), Contracting Offcer Technical Representative

       (COTR), and Task Manager (TM) training. Job Aids supporting this recommendation
       include the Action Offcer (Section 3.9.2, Attachment 23), Support Specialist (Section 2.3.2,
       Atthment 24), and Communications Restoration Group Supervisor (Section 4.3.11.
       Attchment 25).


  Recommendation #16: Tran NCS sta 
                          and collaborate with Nationa Protection and Prgra
  Directorate (NPD) Business Offce to adequately prepare for effective administrtion of 

                                                                                                          the
  financial aspects offutur mission assignments.

       Response: Mission assignment traning in collaboration with the NPPD Business Offce wil
       be conducted the first quarer of Calenda Year 2009. This trining builds on the foundation
       mission assignent trning to be conducted at the December I 1, 2008, NCS

       Telecommunications Training Seminar which wil be attended by NCS and Support Agency
       management and staff (refer to recommendation #2).


   Recommendation #17: Designate an individual or position who wil have the primar

   responsibilty for compilng applicable supporting documentation for each mission assignment

   and who will serve as the point of contat with FEMA for billng and reimbursment puroses.


        Response: Responsibilty for biling and reimbursement reconcilation resides with the NCS
        Plans and Resources Branch Chief. Durng an incident response, the Action Offcer in the
        field or in the NCC is assigned the respnsibilty for compilng and tracking finacial issues
        and works with NCS Plans and Resources Branch to ensure that appropriate processes and
        documents ar completed.




   Recommendation ##18: Provide FEMA with supporting documentation that meets its
   reimburement biling requirements.


                        NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding                  29
Appendix D
Management Comments to the Draft Report




     Response: As described in the answer to # 1 7. the NCS Plan and Resources Branch is
     responsible for processing all documentation associated with MAs issued for an event.
     Documentation associated with the MA is to be gathered during the event and provided to
     FEMA. NCS is ready to assist in all asects of document preparation, submission, and
     retention in keeping with OHS OIG-08-34 (Attchment 26) recommendations for improving
     accountabilty for and management of 
 Federal property.

      Regading contrct efforts accomplished from the Interagency Agrement issued to DlTCO
      durng Katra, NPPD Business Operations obtained all supporting documentation from
      DITCO and the Defense Finace and Accounting Service (OF AS). All documentation was
      processed though the DHS Immigrtion and Customs Enforcement (ICE) Burlington
      Finace Center and FEMA.


   Recommendation #19: Ensure that any supporting agency taked with mission assignment work
   on behalf ofNCS provide biling and supporting documentation to NCS for approval prior to

   submission to FEMA.


      Response: The NCS Plans and Resources Branch is responsible for processing MAs in
      support of FEMA under ESF #2. Each MA provides details regaring the need to "sub-MA"
      other governent deparments or agencies. The brach established an SOP for issuing Sub-
      Taskings (Atthment 27) using the form directed for use by FEMA (MA SOP. Section II,
      Mission Assignment Operations and Procedures, Par G Subtasking Other Agencies, Subpar
      2 Attachment 28) Through this process, MA request are forwarded to other Deparments
      and Agencies with completed documentation returned to FEMA upon mission closur.


   Recommendation #20: Assess the curent status of the unbiled amount of $1.6 M and submit
   all additional bilings to FEMA expeditiously and certify any amounts to be de-obligated.

       Response: The NCS conducted an assessment of all mission assignments for Fiscal Year
       2005 with the FEMA Emergency Management Specialist and concluded tht all MAs have
       been fully executed with the exception of an obligated amount of $ lOOK on MA
       l6040RMSNCS0900). Guidance provided by FEMA was to send an email to the
       Bilingleimburment Specialist stating there is no outstanding billng associated with MA
       1604DRMSNCS0900 and direct closur. This was accomplished on October 16,2008
       (Attchment 29). The mission assignment (MA 1603 DRLANCS0600) plus amendments, for
       $1.6 M. sub-taked to the General Services Agency, has been closed.


    Re~ommeDdatioD #21: Submit to FEMA the letters certifying that no fuher requests for
    payment will be submitted against the 16 mission assignments.

    Response: Of the 16 missions assignents 15 have been closed. As stated in response to
    recommendation #20, th NCS has directed closure ofMA 1604DR MSNCS0900.




                  NCS' Management of 2005 Gulf Coast Hurricanes Mission Assignment Funding      30
Appendix E
Report Distribution



Department of Homeland Securitv

Secretar
Deputy Secretary
Chief of Sta
Deputy Chief of Staff
General Counsel
Executive Secretay
Director, GAD/GIG Liaison Offce
Assistat Secretar for Office of Policy
Assistat Secreta for Office of Public Affais
Assistant Secreta for Offce of Legislative Affairs
Under Secreta, National Protection and Programs Directorate
Assistat Secretar, Offce of Cybersecurity and Communications

Acting Director, National Communcations System
National Protection and Programs Directorate Audit Liaison
Admistrator, Federal Emergency Management Agency
Assistat Administrator, Disaster Operations Directorate, FEMA
FEMA Audit Liaison

Offce of Mana!!ement and Bud!!et

Chief, Homeland Security Branch

DHS DIG Budget Examiner


Cone:ress

Congressional Oversight and Appropriations Committees, as appropriate




                                                  Coast Hurricanes Mission Assignment Funding
                   NCS' Maniigement of2005 Gulf
                                                                                                31
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
